         Nov. 30. 2009 2:45PM                                                                           No.3657           P. 3
        Nov. 30. 2009 12: ?OPM                                                                        No.    m4          P. 2
                                                                            %%'oN IVmq 600.l                ·O~   'AoN   ~U1!1 pOA!I)a~

                              NATIONAL RAnlROAD :l'ASSIDNGlm CORPORATION
                                         OF.FICE OXi'INSPECTOR GENERAL
                                           OFFIc.E OF ~"l'1GATlONS
                                             INVES'rIGATlW lm)?ORT

          'X'ITLE:                            FOOL
          CASE NOMlW.R:                       04-102
          DATE OF Im)?On:r:
          ItEJ.lORT PREPARED B'lll
          Othor Activity (DesOl'lb@):         C1on1pa Report
          4llfl1.mfjll!l
          Syowm.wl!le pronctlvo in'lulry lnto Am\nJk's loeol1lotlvo fuo1in{l: syaremn, vondol'/J, and
          opemt:ion9.

          gIDdlullD

          lChirogo lind Now Orlvans Product SuJJ9litutiOll S423,22;\.tI(i ROOOVCrJ'
                                                                  D




                                                  . . ._       ooll1roeted with Amll'flk to SlI.\JPIy Out _
                                                           fuel Btol'llllo tmlll.'l wlth low solfirr diesel fuel (LSD)
                           ~~ eolllmOlllcing Jlilluary       Z, 2006, In July 2007, _                 EJ{emItive Vice
    (                                                  oontdoted Amu'llk'Q Seulor Contmcting AIJ~)lt for Fuels
                                                           told b01' that GCL Willi having (lifficulty obtalnillg ,
         .LSD                        , refiOe;;.iiii_ obWned _              agreement fOl' GCL 10 sllpply, alld
         bo paid ~                  SIIlfur fue] (ULSDJ. whlQh UDWilly co:rts II few cents II /;)llllon more than
         LSD. _              supplied infonnation tlrot In Mo.roh 2008 nile beoome 9uspioiuU8 Ibnt GCL may
         have beaD suPp,\ylJJ8 LSD to Amtrak In _                   mthor thaD. th~ 0011trncu:d ful; IUld more ,
         Ilx,!le.llllive, ULSD.
         An lIudit of _          fuel receipts by Ox(} S®io~ AucUtOl'                                         1113t
                                                                                                                                          ./
                                                                                                                                           ,
         between July 2, :2007 and March 28, ?008 OCL made eIght                               (851) deliveries of
         diesel fuel to Amtrak's storage r.o.u.1( iuiiiiii        of thoBe olght hllDdr~d twenty (820) deliveiic.~                         I
         were of LSD. 'TIlls resulted In Amtr~k being over blllGd by aCL !l towl of $421,518.78.
         lncluding $54,856.55 recoveJ'ed by _                 from 11 bfU due OCL,. ood Amtrak billing and
         arithmetic errors diseovmoo by ~nlj determJ.nod to owo Arllttak tlw sum of
        $411,616.61.                 also audiled_fuol xeoolpl.9 all<l discovered that t>etweun
        Octobel' 2, 200'/ll1ld Mnrc~OCL made elghiy-elght (88) delivel'les of diesel ~el10
        Amtrak's storage tJmIc In _                      fifty-nillo (59) of these dellveril'6 WeIll LSD. Tbls
        resulted Amtrok belng over blllcd a toW 01'$11,607.25 mthis time frum~. This IndJc:ated 11 total
        furud loss to Amtrak of $433,126.03. Between the amount nlC\lv\lred by _and variou.q
        billing cltoroJllllLle by A.mtroll', OCr, !)V()wJUed Amtrok Q oalculated totD.I of$423,2.23.86.

        01 subpoelllWd the recofcltJ of OCL, Dupre 'l'rl1oking (OCL's common caltlet' .in
(       Murphy Oil, "Exxon Ol4 !lIl'd Chalmette Refillcry, !Il1d condulltcd interviews
                      -TIle United Slates Atto1l1oy'n Office of tho Southern District
Nov, JU, ZUUY     Z:4,PM                                                                   No, J6"       p, 4
/lOY. 30, 2009 12:20PM                                                                  110, 3654 p, 3
                                                                 mf: 'oN   wm:l      600l 'Of: 'AolJ aW!,l paA!IHB
                                                                                                  Pago2

   produot Dl.Ibl1llnrtloll. O!lll!) Ilgal.nst OCL but tJlGll deallned It Ilfter GeL modI! 11 $423,223.96
   rom.ltutlon l)nyment to Amtrok Oil Se.pI~lllber S. 2008, the full IlIIIOunt ofth3 :fraud nlleged by 01.

   om Global Fuel RlN:ul~}t l\'ll~ldllg PoUey ReminD 1!mpIcmcnted
  01 Wld oro Audit made ajoint recommendation 10 AllItral<'S l'xOOllfemeJlt Depl\It!llent (PD) !hut
  Amtmk pe.rnonnol .l'CspoWlible for IW)lUtlug fuel Iecoil'ts iDto e'frlllc Vlould ba roopollBlble to '
  hwlud~ the type/gmde,offuel (ULSD, LSD, Ilt ul).l'Ccoived,lIolll the fuel aeIlV(}I'ol'S bill of In ding
  01'Os.<J.xofereuced wllh the delivery mtwlliw!$. Bffootlve JMIUI\'y I, 2009, the PD plnood n now
  diesel fuel verifioation polloy into offeot.
  :i'tu't of thesv mvi9iollJj moluded tho IllDtItutlon of II Fuel Invoioio~ Del.ivcJY Ticket Detail -
  Con!mot Fuel Typo MlsmlllOhoo Exception Report (Fuel )'1Kcej,t1ot! RepOl'l) whlch trllCks type of
  fuel delivered VGl'1lIlB type offl161 cOll1llioted for.
 Scorohing Fuel BKOGprlOIl RcjJoxts III el'rnK, ~seovered that six (6) direct to locmnotive
  die~el
       fuol vendol'9 hnd apparently provided Amtrnk with LSD when they had contracted fOl'
 ULSD. Ollnvestlgated these findings n!uI discovered that in four (4) cases AnrtnilcpetsollIWl
 had ma.de         =om in              filol rooeipt data Into eTrnx. but it! tWI) (2) OUlies 1(1._
 _      nod                                WIlS product substitution.

                      Prolbln SobutltutloD - $13.],65'9.69 R~ovel'Y
 _        began her OWll, audit of fuel deliveries in                       and supplied OX wjth
 information toot QualIty Rail ~had been the long stmuling direct 10 locomotive
 diesel fhel vendor'at A m t r a k ' s - - ' flloillty. ThelroriginnI contIru:t called for the
 delivery of high sulfur dJesel (HSD). In April 2007, QM stllrted 10 deliver LSD silloo RSD was
 not being processOO by the reflnerles. QruJ !hOIl swltohed to ULSD wlJeu LSD became
 unavailable. DurIng tbIs fune, QRS notified the l)D of tha fuel type lIvailllhllity liltuutions and
                                                                                                                     ,I
 adjustments were made to the purchase ordl)r, with the C01Jt;raol now calling fol' the provision of
 ULSD Ollly. In~ 2009, Savage Services COlporntion (SSe) bought QRS Illlll bcgilll
delivering fuel at _            Tn reviewIng eT.rox fuel    exceptiOll IeporI.!J, _discovered
                                                                                                                     i,
that sse )lad been delivering LSD insteRd of ULSD.                contacted sse nod jeruned !hilt
QRS luuI been deliverIng LSD to Amtrak when SSC Illlqulired

 After 01 SUbj)06JlJled SSC's records Ieearding tho typo of fuellJrovid~d to Amtrak by sse 01:
 QlW, sse conmctlld _           IIIld accepted f11)allclal responsibility for QRS' actioll.q (l,e. Ihe
 dclivClY of LSD irurtead of Ille COllt(llcted ULSD). _pertlmncd an llmlly~ls of 6179~
Amtrak cTmJ( fuel invoIce system fuel delivery tiukets froiD Juno '7, 2007, througb o.nd /uoludlng
l\Aarch 29, 2009; roslIltlng in n f'lndillg !hut QTS/SSe hlId del!votOO 4,279,605 IlIll\on.9 of LSD
wIth n prJeo difference of $133,658.69 butween LSD aud ULSD. On May 26, 2009, Amtraic
reee\ve,l!l ~ Hettlrunent from sse.
 riov.   jU.   lUOY    L:qbrM                                                                        ri o.   jb,) I     r, ')
/10 V,   30, . 2009 12:?OPM                                                                       /1o,   ~6~4          p, 4
                                                                      9~9£   'ON Vlm:1        600l       'O~   'hOtl   l UlU    P3A!913ij
                                                                                                                  Page 3

                        ....l?OI(ma~   Suboi{tutioll ~ §U,<!47.02 Rgcovory

                         Fuel Exception Reports for SovJe.r Valloy Oil Comprmy, fuooJ:po~QIed (SVO) of
                         :reYCIllcd thnt between JOO\1lUY 19. 2009, Illld March 31, 2009, SVO provided
                      Illata! of$2B4,746 gallons of LSD on 297 oooDSiolUl, \~heJ:\ Amtmlc prod fOl' ULSD, '
    which SVO hnd cOJl1tncted 10 mpply UIl. _~ond\1otcdn prloo lI!lllIyslu ofULSD vermllJ LSD
    for tho JunWll'Y 4,2008 through Mareh 31, 2009 tlmo period; reslIItmg In 0. find.f.uI.! ofSl1,44'l.02
    in overcnarSing by SVO,

    01 !lUbl'oenoed SVO'8 I\Ild Ron Osborne Tmolwi/t                  COtnlllO!l   caxr!c,\') Kecol'ds for this time
           nnd lutervlowed !lVO'1l president,                        anc.l Ron Osborne       TmckIXlIl'~ OWllIll',
                          Shortly 1lfI000,        OOlllllWtEtd  R3l'eed to pay t.lrn $11,447,02 amount
   ahe hod                   SVO overbilled Amtrak On July 20, 2009, SVO .mude the fill! $11,441,02
   WBtiMion
   OOmontl!

   All fl rosult of 010 actions, Amlmk hos recovered 0. tom! of $S69,32!)SI in oasos mvolviug dIesel
   fual pl'Oduot substItution, I1Ild the PD has revlsed Aml!ok's oT)'ax ll'aoldllt; of dloso! tllo!
   dellverIM - nrevlBio.c. whloh Indirectly resulted in $145,1 OS.71. ofilia $566,329.5'7 recovery.

   Resgmmendo!iollil
   Closo cllSe pending dewlopmem offurther ilIformatloll,




                                                        \
 J.\egicnnl SupervIsor's SJgnature:          ~.~
                                               .: :.";, _'.__--_
                                                              --_-_=_~"'~-....;.
                                                                          ..... ___ _ _
 Deputy Inspector GencmJ/Collusel'a SlgnlltUl'o;            - -4£t."iL.-._-.-..:.(.~~
